                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
                                                                                             -




Case Number: A09010002                                                                       Page 1 of 1



                NSF OIG received an allegation of plagiarism in an NSF proposal. The complainant
         alleged that the subject1had taken a few lines from his earlier submitted proposal.2 The initial
         analysis indicated that a couple of sentences were copied. However, each full sentence specified
         the source document within the sentence and included a reference to the source document.
         Therefore we conclude that there was insufficient support to the allegation and it does not
         warrant further investigation.

                    Accordingly, this case is closed and no further action will be taken..




JSF OIG Form 2 (1 1/02)
